 LAND ACQUISITION AND RELOCATION
ASSISTANCE AT THE SEATTLE-TACOMA
  AND RENO-TAHOE INTERNATIONAL
            AIRPORTS
       Federal Aviation Administration

        Report Number: SC-2004-090
      Date Issued: September 23, 2004
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Audit Report on Land Acquisition                 Date:    September 23, 2004
           and Relocation Assistance at the Seattle-Tacoma
           and Reno-Tahoe International Airports
           Federal Aviation Administration
           SC-2004-090

  From:    Alexis M. Stefani                                     Reply to
                                                                 Attn. of:   JA-60
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Associate Administrator for Airports

           This report presents the results of our audit of Federal Aviation Administration
           (FAA) oversight of airport land acquisition and relocation assistance programs.
           The objective of our audit was to determine whether FAA oversight ensures that
           airport sponsors: (1) acquire property and relocate occupants in accordance with
           applicable laws and regulations, and (2) are reimbursed only for costs eligible
           under the Airport Improvement Program (AIP). Based on our survey results, we
           decided not to expand our audit nationwide. Therefore, our audit was limited to
           two airports:       Seattle-Tacoma International Airport (Seattle-Tacoma) and
           Reno-Tahoe International Airport (Reno-Tahoe). We found Seattle-Tacoma
           complied fully with laws and regulations for property acquisitions, relocations,
           and claims for reimbursement. Comparatively, we found minor procedural
           weaknesses in these areas at Reno-Tahoe. We also questioned Reno-Tahoe’s
           planned use of $1.5 million in AIP funds to relocate several buildings. See the
           Exhibit for a full description of our audit scope and methodology.

           BACKGROUND
           FAA provides sponsors with AIP funds to acquire land for airport development
           and aviation-related purposes and to mitigate the effect of aircraft noise in the
           immediate vicinity of airports. In addition, FAA provides funds to relocate
           persons dislocated by the land acquisitions. FAA is responsible for ensuring
           uniform and equitable treatment of persons affected by Federally assisted airport
           land acquisitions, within the provisions and entitlements of the Uniform
                                                                                                       2


Relocation Assistance and Real Property Acquisition Policies Act of 1970. FAA
Advisory Circular Number 150/5100-17, “Land Acquisition and Relocation
Assistance for Airport Improvement Program Assisted Projects,” includes
guidance to meet requirements of the Uniform Act.

RESULTS
Sponsors for Seattle-Tacoma and Reno-Tahoe1 acquired property and relocated
occupants consistent with applicable laws and regulations, except for minor
procedural weaknesses concerning appraisals, offers of compensation, and claims
for reimbursement at Reno-Tahoe. Nevertheless, we questioned Reno-Tahoe’s
planned use of $1.5 million in AIP funds to relocate several buildings to another
site. These buildings, which are located on land acquired by Reno-Tahoe, no
longer appear to have the historical significance thought when FAA agreed to
participate in their planned relocation. As a result, we are recommending that
FAA critically reassess whether it should participate in relocating the buildings. If
FAA confirms our observations regarding the buildings, the grant used to acquire
the land should be closed, and any unexpended funds should be made available for
other AIP projects. We are also recommending FAA recover minor amounts of
ineligible title insurance and excess moving expenses that had been included in
Reno-Tahoe’s Federal reimbursement claims.

Acquisitions, Relocations, and Claims Were Substantially
Consistent With Laws and Regulations

Seattle-Tacoma
Seattle-Tacoma met requirements for property appraisals and acquisitions because
it: (1) used multiple approaches to establish value ranges for the three mobile
home parks included in our audit, (2) used multiple comparable replacements to
value single family residences and tenant-owned mobile homes, and (3) obtained
independent reviews of appraisals. Further, Seattle-Tacoma documented and
justified supplemental housing payments based on comparable decent, safe, and
sanitary housing available on the private market. We did not identify any
questionable costs in Seattle-Tacoma claims for reimbursement.

Reno-Tahoe
Reno-Tahoe used multiple approaches to establish values for the three properties
included in our audit. In addition, supplemental housing payments were based on
comparable decent, safe, and sanitary housing available on the private market.
However, contrary to Federal regulations, Reno-Tahoe did not: (1) obtain an

1
    The Port of Seattle, Washington, is the sponsor for Seattle-Tacoma International Airport. The Airport
    Authority of Washoe County, Nevada, is the sponsor for the Reno-Tahoe International Airport.
                                                                                                    3


independent review appraisal for one of the properties, or (2) provide owners of
this property with a written offer of just compensation. Also, claims for Federal
reimbursement included minor amounts of ineligible title insurance and excess
moving expenses. FAA’s Airport District Office in Burlingame, California,
agreed to recover these questioned costs and increase its review of grant files to
ensure weaknesses involving appraisals and questioned costs do not recur.

FAA Financial Support for Relocating Historic Buildings at
Reno-Tahoe Needs Reassessment
As part of FAA’s noise compatibility program, Reno-Tahoe acquired the Steele-
Nash Ranch in June 2003. This ranch, which includes a farmhouse and various
other buildings, is located just north of Reno-Tahoe airport and is subject to high-
levels of noise from departing and landing aircraft.2 Prior to this acquisition, FAA
and Reno-Tahoe entered into a memorandum of understanding to relocate then-
perceived historic buildings on the Steele-Nash Ranch to another site. Based on
preliminary estimates, the cost to acquire another site and relocate the buildings to
it could reach $2 million. Currently, the AIP grant used to acquire the ranch has
$1.6 million in unexpended funds, which could be used to acquire another site and
relocate the buildings.

We questioned the property’s historical significance and whether FAA and
Reno-Tahoe should acquire another site and relocate the buildings there. The
ranch’s residence was altered greatly through both internal and external additions
and modifications during the 1950s and 1960s. Vandals have stolen all of the
fixtures considered historically significant, such as chandeliers and a fireplace
mantel, from the vacant residence. In addition, the property no longer has most of
its original buildings, such as the saddle shed and blacksmith shop.

Reno-Tahoe staff subsequently advised us that, in all likelihood, the buildings will
not be relocated to another site. The buildings will probably be demolished, and
the land will be cleared consistent with FAA runway protection zone requirements
after FAA and Reno-Tahoe complete a cultural resource study to identify and
record the site’s historical significance. Reno-Tahoe estimates it will take about
$100,000 to demolish the buildings and clear the land, leaving $1.5 million for
other purposes.




2
    In a July 24, 2002 memorandum to Reno-Tahoe, FAA also noted the need to remove “…all structures
    and natural vegetation within the runway safety areas that extend throughout the Steele-Nash Ranch
    complex.”
                                                                                 4




RECOMMENDATIONS
We recommend that FAA:

1. Promptly complete the cultural resource study of the Steele-Nash Ranch; use
   the results of this study to critically assess financial support for relocating
   buildings from the ranch; and if the assessment confirms our observations
   regarding the buildings, promptly close the grant and make the estimated
   $1.5 million in unexpended funds available for other AIP projects.

2. Confirm recovery of questioned costs for ineligible title insurance and moving
   expenses at Reno-Tahoe.

ACTION REQUIRED
Staff in FAA’s Office of Airport Planning and Programming and staff in FAA
Airport District Offices responsible for the Seattle-Tacoma International Airport
and the Reno-Tahoe International Airport agreed with our findings and
recommendations. In accordance with Department of Transportation Order
8000.1C, we would appreciate receiving your written comments within
30 calendar days. If you concur with the findings and recommendations, please
indicate the specific action taken or planned for each recommendation and the
target date for completion. If you do not concur, please provide your rationale.
You may provide alternative courses of action that you believe would resolve the
issues presented in this report. We also request that you indicate your agreement
or disagreement with the $1.51 million in potential recoveries cited.

We appreciate the courtesies and cooperation afforded us by FAA representatives
during this audit. If you have any questions concerning this report, please call me
at (202) 366-1992 or Ms. Robin Hunt, Deputy Assistant Inspector General for
Hazardous Materials, Security and Special Programs, at (415) 744-0420.

                                        #

cc: FAA Chief of Staff, AOA-2
    Assistant Administrator for Financial Services, ABA-1
    Anthony Williams, ABU-100
    Martin Gertel, M-1
EXHIBIT. SCOPE AND METHODOLOGY
We interviewed staff and reviewed grant files and data bases, inspection records,
and correspondence in FAA’s Office of Airport Planning and Programming in
Washington, DC, as well as FAA Airport District Offices in Seattle, Washington,
and Burlingame, California. At offices of airport sponsors for the Seattle-Tacoma
International Airport and the Reno-Tahoe International Airport, we reviewed
documented controls and methods for assuring: (1) real property was appraised
and acquired at fair market value; (2) payments for replacement housing were
reasonable and limited to eligible persons; (3) payments for moving and related
expenses were limited to actual, reasonable, and necessary expenses; and
(4) sponsor files contained sufficient support to determine that claims for Federal
reimbursement were limited to eligible costs. Further, we reviewed project files
for selected properties, interviewed staff, reviewed property maps, and toured
project sites.

Seattle-Tacoma received three AIP grants totaling $9 million during fiscal years
2002 and 2003 to acquire three mobile home parks and relocate the residents.
Together, the 3 parks included 8 acres of land, 33 mobile homes, and 3 single
family residences owned by the parks and 78 mobile homes owned by tenants in
the parks. We reviewed appraisal files for all of the three mobile home parks, one
judgmentally selected single family residence, and one judgmentally selected
tenant-owned mobile home. In addition, we reviewed judgmentally selected
supplemental housing assistance payments for three tenants relocated to other
housing.

Reno-Tahoe received six AIP grants totaling $22.5 million during fiscal years
2000 through 2003. We limited our review to four grants ($14.5 million) used to
acquire six four-plex residences, nine duplex residences, and the Steele-Nash
Ranch. We reviewed appraisal files for all of these acquisitions. In addition, we
reviewed judgmentally selected supplemental housing payments for nine tenants
displaced when Reno-Tahoe acquired the multi-family residences.

We performed the audit from October 2003 through January 2004 in accordance
with the Government Auditing Standards prescribed by the Comptroller General
of the United States.




Exhibit. Scope and Methodolog y
